Supreme Court, U.S.
FILED

AUG 2 h 2021
OFFICE OF THE CLERK

No.

1-5732
IN THE
SUPREME COURT OF THE UNITED STATES

In re ARTOSKA GILLISPIE, PETITIONER i
VS.
PAUL BLAIR, RESPONDENT.

ON PETITION FOR A WRIT OF HABEAS CORPUS TO THE
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR A WRIT OF HABEAS CORPUS

Artoska Gillispie #512934
Potosi Correctional Center
11593 State Highway 0
Mineral Point, MO 63660
573-438-6000
Petitioner, pro se

$

W

QUESTIONS PRESENTED
1.

Question:

Has prejudice been shown where defense

counsel (a) failed to file a motion to suppress (CSLI)
(cell-site location information), and (b) failed to object to
the admission of CSLI (cell-site location information)?

Thus,

regardless of whether such CSLI was obtained with or without a
court order, police obtained a warrant not supported by
probable cause before acquiring Petitioner's [personal location
information] maintained by a third party, which required police
to show "reasonable grounds" for believing that Petitioner's
personal location information was relevant and material to an
ongoing investigation.

That showing falls well short of the

probable cause required for a warrant, and such court order
issued is not a permissible mechanism for accessing personal
location information, because not all orders compelling access
to personal location information will require a showing of
probable cause.
2.

Question:

Has prejudice been shown where defense

counsel (a) failed to file a motion to suppress identification,
and (b) failed to object to the in-court (at preliminary
hearing) identifications and to the in-court (at trial)
identifications of Petitioner?

Thus, such identifications were

impermissibly suggestive and resulted in irreparable
misidentification.

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF HABEAS CORPUS

Petitioner respectfully prays that a writ of habeas corpus
issue to review the judgment below.

OPINIONS BELOW

This case is from federal courts:
The opinion of the United States Court of Appeals appears
at Appendix A to the petition and is unpublished.
The opinion of the United States District Court appears
at Appendix B to the petition and is unpublished.
The opinion of the United States Court of Appeals appears
at Appendix C to the petition and is unpublished.
The opinion of the United States Court of Appeals appears
at Appendix D to the petition and is unpublished.
INDEX TO APPENDICES
APPENDIX A

JUDGMENT OF U.S. 8TH CIRCUIT COURT OF APPEALS

APPENDIX B

MEMORANDUM AND ORDER OF U.S. DISTRICT COURT

APPENDIX C

ORDER OF U.S. 8TH CIRCUIT COURT OF APPEALS

APPENDIX D

JUDGMENT OF U.S. 8TH CIRCUIT COURT OF APPEALS

APPENDIX E

PROCEDURAL HISTORY
2

JURISDICTION
This case is from federal courts:

1.

On February 12, 2014, Mr. Gillispie filed a petition for a

writ of habeas corpus pursuant to 28 U.S.C. § 2254 in the
U.S. District Court, seeking to challenge his convictions and
sentences.

Gillispie v. Griffith, No. 4:14-CV-00257-NAB

(E.D. Mo. 2014).

On March 29, 2017, the court denied the

petition.
2.

Mr. Gillispie filed a Notice of Appeal and request for COA,

and on October 2, 2017, the U.S. Court of Appeals for the
Eighth Circuit dismissed the appeal.

Gillispie v. Griffith,

No. 17-1992.
3.

Mr. Gillispie filed a petition for rehearing, and on

February 7, 2018, the U.S. Court of Appeals for the Eighth
Circuit denied rehearing.
4.

Mr. Gillispie filed a motion for leave to file a successive

2254 petition, and on April 2, 2021, the U.S. Court of Appeals
for the Eighth Circuit denied the motion.

The jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a).

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fourteenth Amendment to the United States Constitution
provides, in relevant part

that "No State shall ... deprive

any person of life, liberty, or property, without due process
of law.”
The Sixth Amendment to the United States Constitution
provides, in relevant part, that no person shall be denied the
right to legal counsel in any criminal proceeding, and the
effective assistance of legal counsel.

4

COMPLIANCE WITH RULES 20.1 AND 20.4

In compliance with Rules 20.1 and 20.4 Petitioner states
as follows:
1. The writ will be in aid of the Court's appellate
jurisdiction, by establishing its precedence that will furnish
a basis for determining an identical or similar case that may
subsequently arise, or present a similar question of law.
2. Exceptional circumstances warrant the exercise of the
Court's discretionary powers, in that
violation has resulted.

a constitutional

Thus, a manifest injustice or

miscarriage of justice would result in the absence of habeas
relief.
3. Adequate relief cannot be obtained in any other form or
from any other court, as Petitioner has presented these issues
before the U.S. Court of Appeals for the Eighth Circuit.

3

STATEMENT OF THE CASE

GROUND ONE
TRIAL COUNSEL WAS INEFFECTIVE FOR (a) FAILING TO FILE A
MOTION TO SUPPRESS CSLI (cell-site location information), AND
(b) FAILING TO OBJECT TO THE ADMISSION OF CSLI (cell-site
location information), BECAUSE REGARDLESS OF WHETHER SUCH CSLI
WAS OBTAINED WITH OR WITHOUT A COURT ORDER, POLICE OBTAINED A
WARRANT NOT SUPPORTED BY PROBABLE CAUSE BEFORE ACQUIRING
PETITIONER, ARTOSKA GILLISPIE'S [PERSONAL LOCATION INFORMATION]
MAINTAINED BY A THIRD PARTY, WHICH REQUIRED POLICE TO SHOW
"REASONABLE GROUNDS" FOR BELIEVING THAT MR. GILLISPIE'S
PERSONAL LOCATION INFORMATION WAS RELEVANT AND MATERIAL TO AN
ONGOING INVESTIGATION.

THAT SHOWING FALLS WELL SHORT OF THE

PROBABLE CAUSE REQUIRED FOR A WARRANT, AND SUCH COURT ORDER
ISSUED IS NOT A PERMISSIBLE MECHANISM FOR ACCESSING PERSONAL
LOCATION INFORMATION, BECAUSE NOT ALL ORDERS COMPELLING ACCESS
TO PERSONAL LOCATION INFORMATION WILL REQUIRE A SHOWING OF
PROBABLE CAUSE

AND THUS, MR. GILLISPIE WAS DENIED HIS RIGHTS

TO A FAIR TRIAL, TO DUE PROCESS OF LAW, AND TO EFFECTIVE
ASSISTANCE OF COUNSEL, IN VIOLATION OF THE SIXTH AND FOURTEENTH
AMENDMENTS TO THE UNITED STATES CONSTITUTION AND ARTICLE I, §§
10 AND 18(a) OF THE MISSOURI CONSTITUTION.

6

FACTS IN SUPPORT
In this case, on 12/30/2009, a robbery of US Cellular at
1457 Bass Pro Drive occurred at 19:56 hours.

Sometime later

on this same date, Detective Tom Rich of the Creve Coeur Police
Department "allegedly" obtained a court order for Petitioner,
Artoska Gillispie's (Gillispie) cell phone information, and
Detective Rich requested assistance in locating Gillispie

as

indicated in the Report of Officer Robert Gage DSN 250.
However, the Record does not indicate that such court order was
sought or obtained.

There was no specific exception to the

warrant requirement, in that, no exigent circumstances existed.
Assuming a court order was sought and obtained, the police
obtained a warrant not supported by probable cause before
acquiring Gillispie's [personal location information]
maintained by a third party.

It acquired such personal

location information pursuant to a court order, which required
the police to show "reasonable grounds" for believing that
Gillispie's personal location information was relevant and
material to an ongoing investigation.

That showing falls well

short of the probable cause required for a warrant.
Consequently, a court order issued is not a permissible
mechanism for accessing personal location information, because
not all orders compelling access to personal location
information will require a showing of probable cause.
a person's movements through CSLI (cell-site location
7

Tracking

information) partakes many of the qualities of GPS monitoring
considered in United States v. Jones, 565 U.S. 400, 132 S.Ct.
945, 181 L.Ed.2d 911 (2012).
The digital data at issue; personal location information
maintained by a third party,

Specifically, a person 1s

expectation of privacy in his physical location and movements.
This issue is addressed in United States v. Jones, supra (five
Justices concluding that privacy concerns would be raised by
GPS tracking).
A person does not surrender all Fourth Amendment
protection by venturing into the public sphere.

To the

contrary, "what [one] seeks to preserve as private, even in an
area accessible to the public, may be constitutionally
protected."

Katz v. United States

S.Ct. 507, 19 L.Ed.2d 576 (1967).

389 U.S. 347, 351-52, 88
A majority of the Supreme

Court has already recognized that individuals have a reasonable
expectation of privacy in the whole of their physical
movements.

Jones, 565 U.S. at 430, 132 S.Ct. 945, 181 L.Ed.2d

911 (Alito, J., concurring in judgment); Id. at 415, 132 S.Ct.
945, 181 L.Ed.2d 911 (Sotomayor, J., concurring).
Generally, police need a warrant to access CSLI.
case specific exceptions

exigent circumstances may

e »g •

support a warrantless search.

However

Thus, "[i]n the absence of a

warrant, a search is reasonable only if it falls within a
specific exception to the warrant requirement."

Riley v.

California, 134 S.Ct. 2473, 2482, 189 L.Ed.2d 430, 439 (2014).
8
\

Here, however, there was no specific exception to the warrant
requirement, in that, no exigent circumstances existed.
In Carpenter v. United States, 138 S.Ct. 2206 (2018), the
Supreme Court reversed holding:

[1]-The Government's

acquisition from wireless carriers of defendant's historical
cell-site location information (CSLI) was a search under the
Fourth Amendment.

When the Government accessed defendant's

CSLI, it invaded his reasonable expectation of privacy in the
whole of his physical movements, and the fact that the
Government obtained the information from a third party did not
overcome defendant's claim to Fourth Amendment protection;
[2]-A court order obtained by the Government under the Stored
Communications Act, 18 U.S.C.S. § 2703(d), was not a permissible
mechanism for accessing historical CSLI because the showing
required under the Act fell well short of probable cause.

A

warrant was necessary to obtain CSLI in the absence of an
exception such as exigent circumstances.
Trial counsel was ineffective for (a) failing to file a
motion to suppress CSLI (cell-site location information), and
(b) failing to object to the admission of CSLI (cell-site
location information).

Thus, Petitioner was denied his rights

to a fair trial, to due process of law, and to effective
assistance of counsel, in violation of the Sixth and Fourteenth
Amendments to the United States Constitution and Article I, §§
10 and 18(a) of the Missouri Constitution.

9

GROUND TWO
TRIAL COUNSEL WAS INEFFECTIVE FOR (a) FAILING TO FILE A
MOTION TO SUPPRESS IDENTIFICATION, AND (b) FAILING TO OBJECT
TO THE IN-COURT (at preliminary hearing) IDENTIFICATIONS AND
TO THE IN-COURT (at trial) IDENTIFICATIONS OF PETITIONER,
ARTOSKA GILLISPIE.

THE IN-COURT (preliminary hearing)

IDENTIFICATIONS WERE IMPERMISSIBLY SUGGESTIVE, IN THAT,
ALTHOUGH A PHYSICAL LINEUP WAS CONDUCTED AND PHOTOGRAPHED ON
12/31/2009, THE VICTIMS STEVEN SHAW AND THOMAS CASALI WERE NOT
SHOWN SAID LINEUPS IN THEIR PHYSICAL OR PHOTOGRAPHIC FORMS.
FURTHERMORE, THERE WAS NO POSITIVE IDENTIFICATION OF
MR. GILLISPIE AS THE PERPETRATOR OF THE ROBBERY OF US CELLULAR
AT 1457 BASS PRO DRIVE THAT OCCURRED ON 12/30/2009.

THUS, THE

FIRST POSITIVE IDENTIFICATION OF MR. GILLISPIE WAS AT THE
PRELIMINARY HEARING AND WAS NOT BASED ON THE VICTIM’S RECALL OF
FIRST-HAND OBSERVATIONS OF THE ROBBERY, BUT RATHER FROM THE
SUGGESTIVE PROCEDURES OR ACTIONS THAT OCCURRED AT THE
PRELIMINARY HEARING, AND MR. GILLISPIE WAS DENIED HIS RIGHTS TO
A FAIR TRIAL, TO DUE PROCESS OF LAW, AND TO EFFECTIVE
ASSISTANCE OF COUNSEL, IN VIOLATION OF THE SIXTH AND FOURTEENTH
AMENDMENTS TO THE UNITED STATES CONSTITUTION AND ARTICLE I, §§
10 AND 18(a) OF THE MISSOURI CONSTITUTION.

10

FACTS IN SUPPORT
The Constitution, our decisions indicate, protects a
defendant against a conviction based on evidence of
questionable reliability, not by prohibiting introduction of
the evidence, but by affording the defendant means to persuade
the jury that the evidence should be discounted as unworthy of
credit.

Constitutional safeguards available to defendants to

counter the State’s evidence include the Sixth Amendment rights
to counsel, Gideon v. Wainwright, 372 U.S. 335, 343-345 (1963);
compulsory process, Taylor v. Illinois, 484 U.S. 400

408-409

(1988); and confrontation plus cross-examination of witnesses,
Delaware v. Fensterer, 474 U.S. 15, 18-20 (1985).
On 12/30/2009, a robbery of US Cellular at 1457 Bass Pro
Drive occurred at 19:56 hours (REPORT pg. 1 of 42).1

On

12/31/2009, a physical lineup was conducted and photographed at
13:15 hours (REPORT pg. 18 of 42).

The victims of this

robbery, Steven Shaw and Thomas Casali were not shown said
lineups in their physical or photographic forms.

Furthermore,

2The Offense/Incident Report by Officer Robert Gage DSN 250
will be referenced ("REPORT").

11

there was no positive identification of Petitioner, Artoska
Gillispie (Gillispie) as the perpetrator of said robbery.
However, on 12/31/2009, a warrant was issued, without probable
cause having been presented on the charge of Robbery In The
First Degree (MO Charge Code 1201099.0), in violation of
Section 569.020 RSMo.
Steven Shaw, victim indicated that he was not ever shown a
photo lineup or anything like that.

Steven Shaw's first

identification of Gillispie was during the suggestive actions
that occurred at the preliminary hearing.

Prior to the

preliminary hearing, Steven Shaw had not identified Gillispie
as the person who committed the robbery of US Cellular on
12/30/2009.

Additionally, the record does not indicate that

Steven Shaw positively identified Gillispie as the suspected
robber at any point prior to the preliminary hearing,

The

following colloquy occurred between defense counsel, Rebecca
Winka and Steven Shaw:

Q- Is it fair to say that when you came to the preliminary hearing
and you identified Mr. Gillispie in court that was the first
time you had seen either him or a picture of him since the
robbery?
A. Yes.
Q. And you were sure that was the person who robbed you?
A.

The minute he walked in the room. Yes.

(SS.Dep.15:23-25; 16:18-20).3

12

This pretrial identification was not reliable because
Gillispie was the only prisoner in the courtroom dressed in
an orange jumpsuit, coupled with the fact that Gillispie was
sitting next to the only defense lawyer in the courtroom.
Thus, the first positive identification of Gillispie was at
the preliminary hearing and was not based on the victim1s
recall of first-hand observations of the robbery, but rather
from the suggestive procedures or actions that occurred at the
preliminary hearing.
During the Deposition, Thomas Casali testified that he
first learned the name of who was arrested in this case when he
Googled it, and he also viewed a picture that accompanied the
article.

The following colloquy occurred between defense

counsel, Rebecca Winka and Thomas Casali:

Q. When did you first learn the name of who was arrested in this
case?
A.

I think I Googled it.

Q.

Okay?

A.

On, you know, Google I said US Cellular robbery and then it
pulled up like on KSDK and that's when I saw his name.

(TC.Dep.18:12-18) .3

3The Deposition of Steven Shaw will be referenced (SS.Dep")
and Thomas Casali referenced ("TC.Dep.").
13

Q.

Okay, do you recall, did the article you viewed on line, did
that have a picture accompanying it?

A. Yes.
(TC.Dep.18:25; 19:1-2).
During the Deposition, Thomas Casali testified that a
police officer showed him one (1) individual picture of the
suspected robber, and further testified that he was not shown
a photo lineup at all in this case.

The following colloquy

occurred between defense counsel, Rebecca Winka and Thomas
Casali:

Q- Okay. At any point after that night did the police ever show
you an individual picture of—
A.

They showed me a picture like after it happened, after we had
written our statements, or police reports, sorry, they—
I can't remember which police officer did, but one of them
pulled it out and said is this the guy and I said yeah,
that's him.

Q- Okay?
A.

You know, you can recognize his face.

Q- Okay. So he just showed you one picture?
A. Yes.

Q. Okay. And you said you never viewed a photo lineup at all in
this case?
A.

No. We didn't have a lineup.

(TC.Dep.19:4-22).
14

This pretrial identification was not reliable because the
one (1) individual picture of Gillispie was the only photo
shown to Thomas Gasali, coupled with the fact that police
failed to show Thomas Casali a photo lineup or physical lineup,
where Mr. Casali would have the opportunity to view multiple
photos and/or view Gillispie live in 3D.

Thus, the first

positive identification of Gillispie was after being shown one
(1) individual photo and was not based on the victim's recall
of first-hand observations of the robbery, but rather from the
suggestive procedures or actions that occurred when the officer
showed Mr. Casali a single picture of Gillispie, which limited
Mr. Casali's options to consider all of the relevant factors
involved in identification.
In this case, first, this Court must decide whether the
police used an unnecessarily suggestive identification
procedure.

Second, if they did, the Court must next consider

whether the improper identification procedure so tainted the
resulting identification as to render it unreliable, and
therefore, inadmissible.

See Neil v. Biggers, 409 U.S. 188

(1972); and Manson v. Brathwaite, 432 U.S. 98 (1977).

Here,

with respect to the first step, a pretrial identification
procedure is unduly suggestive if the identification results
not from the witness's recall of first-hand observations, but
rather from the procedures or actions employed by the police.

15

Contending that the Due Process Clause is implicated here,
Petitioner

Gillispie relies on a series of decisions involving

police-arranged identification procedures.
Denno

See Stovall v.

388 U.S. 293 (1967); Simmons v. United States, 390 U.S.

377 (1968); Foster v. California

394 U.S. 440 (1969); Neil v.

Biggers, 409 U.S. 188 (1972); and Manson v. Brathwaite
U.S. 98 (1977).

432

These cases detail the approach appropriately

used to determine whether due process requires suppression of
an eyewitness identification tainted by police arrangement.
First, due process concerns arise only when law enforcement
officers use an identification procedure that is both
suggestive and unnecessary, ^d. at 107, 109; Biggers, 409 U.S.
at 198.

Second, even when the police use such a procedure,

however, suppression of the resulting identification is not the
inevitable consequence.

Brathwaite, 432 U.S. at 112-113;

Biggers, 409 U.S. at 198-199.

Instead, due process requires

courts to assess, on a case-by-case basis, whether improper
police conduct created a "substantial likelihood of
misidentification." Id. at 201.

"[Reliability [of the

eyewitness identification] is the linchpin" of that evaluation.
Brathwaite, 432 U.S. at 114.

Where the "indicators of

[a witness'] ability to make an accurate identification" are
outweighed by the corrupting effect of law enforcement
suggestion, the identification should be suppressed.

16

Expert witness, Dr. James Lampinen is a distinguished
professor of psychology at the University of Arkansas.
Dr. Lampinen has conducted an expert review of the eyewitness
identification factors in many cases.

Dr. Lampinen has

testified that his specialty is cogni-psychiatry, which is the
branch of psychology that deals with memory, reasoning,
thinking, and language,

Dr. Lampinen has testified about his

extensive experience working with various law enforcement
agencies promoting good eyewitness practices, and courses he
taught in Arkansas to teach the best practices for eyewitness
identification.

Dr. Lampinen published a book in 2012 about

the psychology of eyewitness identification.
Dr. Lampinen has testified that there have been
significant developments in the scientific world of eyewitness
identifications since 1998.

Some of these developments include

new insight regarding variables which can make eyewitness
identifications more or less reliable.

These new developments

have furthered the general understanding of eyewitness
identifications as a whole, causes of misidentifications, and
the weight that such evidence should be given in a setting such
as the case at bar.
Dr. Lampinen has testified that an in-court identification
of this nature, as in the case at bar, is suspect for two
reasons.

First, when a witness is asked to identify someone

who is sitting in a room, it is highly suspect because it is
pretty clear who is supposed to be the suspect and who should
17

be identified.

The witness is then under a great deal of

pressure to make an identification of that person.
an issue called ‘'photo biasing."

Second, is

This phenomenon! results when

a person has seen a picture of a suspect and is then later
asked to make an identification.

That witness is more likely

to identify the suspect in the photo whether or not the person
is guilty.

That same logic applies to Steven Shaw's and Thomas

Casali's in-court identification of Petitioner.
Dr. Lampinen has testified that memory gets worse over
time.

Therefore, as in the case at bar, there was no

identification made by Steven Shaw or Thomas Casali a short
period after the crime occurred, but could be made months
later.

Thus, the likely explanation is that the identification

was based on suggestive outside factors rather than memory.
It is within the sound discretion of this Court to permit
expert testimony if it will assist the finder of fact and not
divert the finder of fact's attention from the relevant facts
or relate to the credibility of witnesses.
New Hampshire, 565 U.S. 228, 247 (2012).

See Perry v.
Here, the Court

should find that Dr. Lampinen's scientific study is helpful to
discerning relevant facts regarding the reliability of
eyewitness identification factors in the case at bar.
Trial counsel was ineffective for (a) failing to file a
motion to suppress identification, and (b) failing to object
to the in-court (at preliminary hearing) identifications and

18

to the in-court (at trial) identifications of Petitioner,
Gillispie.

Thus, Petitioner was denied his rights to a fair

trial, to due process of law, and to effective assistance of
counsel, in violation of the Sixth and Fourteenth Amendments
to the United States Constitution and Article I, §§ 10 and
18(a0 of the Missouri Constitution.

19

REASONS FOR GRANTING THE PETITION

The writ should issue because:

(1) the record does not

indicate that a court order was sought or obtained to retrieve
Petitioner's personal location information; (2) Petitioner's
personal location information was not relevant and material to
an ongoing investigation, and there was no specific exception
to the warrant requirement, in that, no exigent circumstances
existed; (3) assuming a court order was sought and obtained,
the police obtained a warrant not supported by probable cause
before acquiring Petitioner's personal location information.
Police acquired such personal location information pursuant to
a court order, which required the police to show "reasonable
grounds" for believing that Petitioner's personal location
information was relevant and material to an ongoing
investigation.

That showing falls well short of the probable

cause required for a warrant.
The writ should issue because:

(1) trial counsel was

ineffective for failing to file a motion to suppress
identification; (2) trial counsel was ineffective for failing
to object to in-court identifications of Petitioner; (3) such
identifications of Petitioner was not based on the victims'
recall of first-hand observations of the robbery, but rather
from the suggestive procedures or actions that occurred at the
preliminary hearing, and the victim researching Google and
obtaining Petitioner's name and photo.
20

CONCLUSION

WHEREFORE, based on the foregoing reasons and facts
presented herein, Petitioner, Artoska Gillispie respectfully
moves this Honorable Court to issue a writ of habeas corpus

>

and for such other and further relief as this Court may deem
just and proper under the circumstances.

Respectfully submitted,

Z7
ARTOSKA GILLISPIE #512934
POTOSI CORRECTIONAL CENTER
11593 STATE HIGHWAY 0
MINERAL POINT, MO 63660
573-438-6000
PETITIONER, PRO SE
DATE:

21

08/10/2021

